                                          2




If you have any questions about this report, please contact Jannifer Jenkins at (703) 292-
4996 or Sherrye McGregor at 703-292-5003.

Attachment

cc: Dr. Quentin Wheeler, Division Director, DEB
    Dr. Richard 0. Lempert, Division Director, SES
    Dr. G. Wayne Van Citters, Division Director, AST
  THE FRESH POND RESEARCH INSTITUTE
             173 Harvey Street
       Cambridge, Massachusetts 02140

   National Science Foundation Award Numbers
                  DEB-9407965
                  AST-9896187
                  SES-9906997

                Financial Schedules

                        and

           Independent Auditors' Reports


For the Period August 1, 1996 to September 30, 2001




   M.D.            OPPENHEIM & COMPANY, PC.
                 REPORT RELEASE RESTRICTION

This report may not be released to anyone outside of the National
Science Foundation without the approval of the National Science
Foundation - Office of Inspector General, except to an agency involved
in negotiating or administering the awards. Furthermore, information
contained in this audit report should not be used for purposes other than
intended without prior consultation with the National Science
Foundation - Office of Inspector General regarding its applicability.
                      THE FRESH POND RESEARCH INSTITUTE


                                 TABLE OF CONTENTS

                                                                  Page

Report Summary and Highlights:                                       1
 Purpose and Scope of Audit                                          2
 Summary of Audit Results                                            3
 Background                                                          5
 Exit Conference                                                     7

Independent Auditors' Report on Compliance and Internal Control      9
Findings and Recommendations on Compliance                          11
Follow-Up of Prior Audit Findings                                   14

Financial Schedules:                                               15
 Independent Auditors' Report                                      16
 Schedules A-1 to A-3 - Schedules of Award Costs                   18
 Schedule B - Schedule of Questioned Costs                         21
 Schedules C-1 to C-3 - Schedules of Reclassifications             23

Notes to Financial Schedules                                       26
REPORT SUMMARY AND HIGHLIGHTS




                                1
4
5
6
                                  EXIT CONFERENCE


An exit conference was held on January 7, 2002 at the Awardee's office located at 64
Fairfield Street, Cambridge, Massachusetts. Findings and recommendations and questioned
costs contained in this report were discussed with those attending.


For The Fresh Pond Research Institute:



For M.D. Oppenheim and Company, P.C.:




                                                                                     7
  INDEPENDENT AUDITORS' REPORT

              ON

COMPLIANCE AND INTERNAL CONTROL




                                  8
January 7, 2002




                  v _ IE   CD. OPPENHEIM & COMPANY, PC.   10
12
13
                      FOLLOW-UP OF PRIOR AUDIT FINDINGS



There was no prior audit of NSF awards to The Fresh Pond Research Institute.




                                                                               14
FINANCIAL SCHEDULES




                      15
              &COMPANY,. OPENHIM M.D             17
PUBLICAONTS                            CERTIFD
This page has been redacted
This page has been redacted
This page has been redacted
                                                                            Schedule B (Cont.)

                       THE FRESH POND RESEARCH INSTITUTE
                           National Science Foundation Awards
                           Schedule of Questioned Costs (Cont.)
                        From August 1, 1996 to September 30, 2001


Consultant Services (Cont.):

Office of Management and Budget Circular A- 122, Attachment A, Section A, 4, requires that
a cost is allocable to a particular cost objective, such as a grant, contract, service, or other
activity, in accordance with the relative benefits received. Since the NSF awards were not
the beneficiary of all of these expenses an allocation should have been performed to charge
NSF for only the proper benefit.

In discussions with the President of FPRI, these charges were made in error to the NSF
awards as an indirect cost. This treatment was incorrect as explained in Finding Number 1 of
the Findings and Recommendations on Compliance Section of this report.

Awardee's Comment

In the future, FPRI will make sure that all health insurance costs are paid in proportion to the
percentage of effort expended. The accountant fees were included in indirect costs as
directed by NSF (see further explanation in Awardee's comment to Compliance Finding
Number 1). In the future, FPRI will allocate accountant costs in proportion to the percentage
of expenses. All other costs have been paid in proportion to the effort expended.

Auditors' Response to Awardee's Comment

A response is not deemed necessary.




                                                                                              22
This page has been redacted
This page has been redacted
This page has been redacted
                      THE FRESH POND RESEARCH INSTITUTE
                             Notes to Financial Schedules
                       From August 1, 1996 to September 30, 2001


1. Summary of Significant Accounting Policies:

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National
Science Foundation (NSF) instructions. Schedules A-1 to A-3 have been prepared from the
reports submitted to NSF. The basis of accounting used in preparation of these reports
differs from accounting principles generally accepted in the United States of America. The
following information summarizes these differences:

A.   Equity

     Under the terms of the awards, all funds not expended according to the award
     agreements and budgets at the end of the award periods are to be returned to the
     National Science Foundation. Therefore, the awardee does not maintain any equity in
     the award and any excess of cash received from NSF over final expenditures is due back
     to the National Science Foundation.

B.   Inventory

     Minor materials and supplies are charged to expense during the period of purchase. As
     a result, no inventory is recognized for these items in the financial schedules.

2.   Income Taxes:

The Fresh Pond Research Institute is a private nonprofit corporation, incorporated under the
laws of the Commonwealth of Massachusetts. The Fresh Pond Research Institute is exempt
from Commonwealth of Massachusetts franchise or income tax.




                                                                                         26
